<html>
<title> - [H.A.S.C. No. 114-143] FORCE MANAGEMENT LEVELS IN IRAQ AND AFGHANISTAN; READINESS AND STRATEGIC CONSIDERATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 114-143]

                    FORCE MANAGEMENT LEVELS IN IRAQ

                     AND AFGHANISTAN; READINESS AND

                        STRATEGIC CONSIDERATIONS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            DECEMBER 1, 2016


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    


                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-761 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

JEFF MILLER, Florida                 JACKIE SPEIER, California
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
JOSEPH J. HECK, Nevada               HENRY C. ``HANK'' JOHNSON, Jr., 
AUSTIN SCOTT, Georgia                    Georgia
MARTHA McSALLY, Arizona              GWEN GRAHAM, Florida
             Christopher Bright, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                         Anna Waterfield, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Subcommittee 
  on Oversight and Investigations................................     2
Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Dubik, LTG Jim, U.S. Army (Ret.).................................
Ham, GEN Carter F., U.S. Army (Ret.).............................
Russell, Cary B., Director, Military Operations and Warfighter 
  Support, Government Accountability Office......................     3

                                APPENDIX

Prepared Statements:

    Dubik, LTG Jim...............................................    55
    Ham, GEN Carter F............................................    50
    Hartzler, Hon. Vicky.........................................    29
    Russell, Cary B..............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    
    
    
    
    
    
    
    FORCE MANAGEMENT LEVELS IN IRAQ AND AFGHANISTAN; READINESS AND 
                        STRATEGIC CONSIDERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                       Washington, DC, Wednesday, December 1, 2016.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2118, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Good morning. I would like to extend a warm 
welcome to our witnesses testifying before us today. Before I 
begin, I would like to welcome the members of the committee 
present today, or who may yet arrive, who are not members of 
the subcommittee. I ask unanimous consent that these committee 
members be permitted to participate in this hearing with the 
understanding that all subcommittee members will be recognized 
for questions prior to those not assigned to the subcommittee. 
Without objection, so ordered.
    This hearing will help the subcommittee to assess force 
management levels, or FMLs, which are more commonly known as 
troop caps. The White House set a troop cap for Iraq and 
Afghanistan. That cap is 5,262 for Iraq. In Afghanistan, the 
cap is 8,448 beginning this January. Now, these are very, very 
precise numbers. Some might argue that setting a troop cap 
upends an orderly military planning process. Typically, 
military leaders are first given a mission, and then they 
determine what resources are required to meet that mission. 
Setting the cap first, however, constrains subsequent military 
choices. An imposed force management level leads to potentially 
dangerous tradeoffs.
    Indeed, one consequence of a troop cap may be our military 
readiness. I look forward to learning about the extent to which 
readiness factors are, or should be taken into consideration 
when a troop cap is implemented. In July during a Readiness 
Subcommittee hearing, the deputy commanding general of the U.S. 
Army's Training and Doctrine Command expressed concern that 
because of troop caps, Army aviation brigades were deployed to 
Afghanistan without maintenance personnel.
    He said, and I quote, ``Combat aviation brigades are not 
meeting readiness rates.'' He noted that soldiers were losing 
their edge in maintenance skills. This was, he warned, 
degrading, quote, ``the ability of an aviation unit to regain 
readiness.''
    I am eager also to know how troop caps affect the 
deployments of Army brigades, which are charged with the train, 
advise, and assist mission. As I understand it, although it 
might be preferable for the Army to deploy entire brigade 
combat teams for this work, this is not possible, because doing 
so would breach the troop caps. Therefore, as an alternative, 
individual senior soldiers are chosen from a variety of units 
to undertake the TAA mission.
    I want to gain a better understanding of how this practice 
might harm Army readiness, unit cohesion, career development, 
and retention. Furthermore, I am concerned about how troop caps 
might influence the positioning of force protection personnel. 
For example, are medevac [medical evacuation] teams being 
placed outside of the theater in Iraq because doing so allows 
them to not be subject to troop caps? If so, can they still 
respond quickly to recover injured warfighters?
    I would also like our witnesses to discuss other 
considerations associated with setting troop caps. How does the 
development of a troop cap fit into the planning process?
    Before I introduce the witnesses, I turn to my colleague, 
Mr. Cooper, who is serving as our acting ranking member until 
Representative Speier arrives, for your comments. Mr. Cooper.
    [The prepared statement of Mrs. Hartzler can be found in 
the Appendix on page 29.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
          SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Cooper. I thank chairwoman and I welcome the witnesses. 
I look forward to your testimony. I share the chair's concern 
about the arbitrariness of any troop cap. It seems to be the 
opposite of a threat-based analysis. I also share your concern 
about fudging on the cap, manipulating things so that you don't 
bring your Army aviation maintenance crews with you or keep 
your medevac folks outside of the region.
    Furthermore, I share the concern that when we fund 
contractors to do the same job we are paying twice essentially 
for the same work, and also undermining our readiness and 
Active Duty forces. But, of course, we need to be forward-
looking. It is up to the new administration now to solve these 
problems, and I think the public back home wants some 
reassurance that we are not going to mindlessly escalate in a 
region, but also, we want to, when we have forces, use them in 
a proper fashion. So I thank the chair for having this hearing, 
and I look forward to the testimony of the witnesses.
    Mrs. Hartzler. Okay. Thank you, Mr. Cooper. So I am pleased 
to recognize our witnesses today. I want to thank them for 
taking time to be with us. Members have been provided with the 
full biography of each witness.
    But joining us today is Mr. Cary Russell, the Director of 
Military Operations and Warfighter Support for the Government 
Accountability Office. Mr. Russell will summarize some of the 
important work the GAO has done on this subject.
    We have retired Army General Carter Ham. General Ham 
retired from the United States Army in 2013 as the commander of 
U.S. Africa Command. He spent nearly four decades in the Army, 
and is one of a very small number of military leaders who rose 
from the rank of private to four-star general.
    And we have retired Army Lieutenant General Jim Dubik. 
General Dubik retired from the U.S. Army in 2008 after 37 years 
of active service. General Dubik's last job on Active Duty was 
as the commanding general of the Multinational Security 
Transition Command Iraq, and the NATO [North Atlantic Treaty 
Organization] training mission in Iraq. So thank you all for 
being with us here today. We will now hear your opening 
remarks.
    Mr. Russell, we will begin with you.

STATEMENT OF CARY B. RUSSELL, DIRECTOR, MILITARY OPERATIONS AND 
      WARFIGHTER SUPPORT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Russell. Thank you, Chairwoman Hartzler, Representative 
Cooper, members of the subcommittee. Thank you for having me 
here today to discuss some of the actions the Department of 
Defense [DOD] has taken to maximize military capabilities while 
operating under force management levels. My statement today 
draws upon a body of work GAO has conducted over the past 
several years examining aspects of military operations in 
contingency environments.
    Let me start out with some overall context about force 
management levels and their use in past and present operations. 
Basically, force management levels, also referred to as force 
caps, limit the number of U.S. military personnel deployed to a 
given region and have been a factor in military operations for 
a very long time, going back at least to the Vietnam War, where 
troop ceilings were set to manage the number of deployed U.S. 
forces.
    Force management levels are often set by the executive 
branch, but can also be influenced by external factors, such as 
host nation limitations and coalition presence. More recently, 
force management levels have been used to shape the drawdown of 
forces in Afghanistan and Iraq, and now, in Afghanistan as well 
as in Iraq and Syria, in support of the fight against ISIS 
[Islamic State of Iraq and Syria], U.S. forces are deployed 
under force management levels set by the current 
administration. Those levels are presently 9,800, which are 
going down, as Chairwoman Hartzler noted, in Afghanistan, and 
around 5,300 in Iraq and Syria under Operation Inherent 
Resolve.
    While force management levels have long been used as policy 
tools to shape and direct the deployment of U.S. military 
forces, they present a unique challenge to military planners, 
creating a planning paradox of sorts. As military doctrine 
states, planning begins with the end state in mind, providing a 
unifying purpose around which actions and resources are 
focused. Basically, the focus is on defining the military 
mission first, and then developing plans with the necessary 
resources to accomplish that mission. Thus, force management 
levels may have the effect of essentially reversing that order 
and establishing resource limits that DOD planners and 
commanders must then work within.
    With these challenges in mind, I want to highlight four key 
takeaways we have observed from current operations where DOD 
has leveraged existing capabilities to help work around limited 
boots on the ground. These include increased reliances on 
partner nation security forces, U.S. and coalition airpower, 
U.S. special operations forces, and contractor and temporary 
duty personnel.
    With regard to partner nation security forces, DOD has 
increased engagement with partner nations through advise and 
assist missions that rely on partner nation security forces to 
do the planning, execution, and sustain operations. That is, 
working by, with, and through our partners more so than ever 
before. This can create complications, however, for U.S. 
planners, in terms of providing the necessary supporting 
capabilities and resources where and when they are most needed.
    Further, as we have reported in the past, splitting up U.S. 
brigade combat teams to provide advisers creates challenges for 
maintaining readiness in training those brigades. Regarding 
airpower, DOD has relied on significant U.S. and coalition 
airpower to provide support to partner ground forces in lieu of 
U.S. ground combat capabilities. Since U.S. operations related 
to ISIS began in August of 2014, coalition members have flown 
nearly 44,000 sorties, releasing more than 57,000 munitions. 
Air-based intelligence, surveillance, and reconnaissance [ISR] 
systems have also proved critical to commanders by providing 
them timely and accurate information, particularly in the 
absence of a large U.S. ground presence. However, this reliance 
on airpower is not without its cost or challenges.
    For example, the Secretary of Defense has recently stated 
that previously that the intensity of the U.S. air campaign 
against ISIS has been depleting U.S. stocks of GPS [Global 
Positioning System] and laser-guided munitions. Regarding the 
use of special operations, DOD has increased its use of U.S. 
special operations forces to increase its operational reach and 
maximize capabilities under force management levels. However, 
the increased use of special forces in these current operations 
has resulted in a high pace of deployments which can affect 
readiness, retention, and morale.
    Finally, DOD has increased its reliance on contractors in 
temporary duty assignments to round out its force constrained 
by force management levels. During operations in Afghanistan 
and Iraq contractors have played a critical role in supporting 
U.S. troops and in past operations, sometimes even exceeding 
the numbers of deployed military personnel. However, the 
increased use of contractors and temporary personnel to provide 
support during operations has its complications. For example, 
DOD has had longstanding challenges overseeing contractors in 
deployed environments, even when there was a much larger robust 
troop presence on ground to perform that oversight.
    This completes my statement and I would be pleased to 
respond to any questions you may have.
    [The prepared statement of Mr. Russell can be found in the 
Appendix on page 31.]
    Mrs. Hartzler. Thank you, Mr. Russell, General Ham.
    General Ham. Thanks, Madam Chairwoman. I think the members 
of the committee have my written statement. If it is okay, 
we'll just let that stand and be ready to progress to questions 
and answers.
    Mrs. Hartzler. All right, thank you very much. General 
Dubik? You are all about efficiency. We appreciate it. That is 
great.
    [The prepared statements of General Ham and General Dubik 
can be found in the Appendix beginning on page 50.]
    Mrs. Hartzler. Well, we will go to some questions. And I 
will ask General Ham the first question. So in July, Lieutenant 
General Kevin Mangum, the deputy commanding general of the U.S. 
Army Training and Doctrine Command, testified before HASC 
[House Armed Services Committee] that deploying combat aviation 
brigades without their maintainers was causing an, quote, 
``atrophy of critical skills.'' When aircraft maintainers are 
left behind in the United States during their combat aviation 
brigade's deployment, what task relating to their primary 
military occupation do they accomplish at home station to 
remain skilled since they do not have equipment to work on?
    General Ham. Madam Chairwoman and Mr. Cooper, thanks again 
for the opportunity to appear before you. I think that is 
precisely the right question. In addition to the others that 
you raised and Mr. Cooper raised in your opening statements. So 
when a unit is split apart, a unit that is not designed to be 
severable into various deployable components, there is, I 
think, a very real readiness concern. So in a specific case of 
Army aviation units, when most or all of the airframes, most or 
all of the aircrews are deployed, and most or all of the 
maintenance capability of that unit remains at home station, 
there is a very real concern about how do you--how do the 
remaining maintenance personnel retain their proficiency?
    It requires an extraordinary level of effort on the part of 
the home station chain of command to find opportunities for 
them. Sometimes that could be at increased cost, sending 
personnel on temporary duty to other installations where the 
airframes upon which those personnel need to work to sustain 
their proficiencies, there could be some increased cost. But 
for the most part, I think those skills would atrophy. They 
also lose the cohesiveness of an aviation unit. It is designed 
for the aircrews and the maintenance, the ground support 
elements to operate together.
    When you separate them, post-deployment, it takes a much 
longer period of time to rebuild the readiness for which that 
unit was intended. So there are several consequences that 
affect readiness and the point that Mr. Cooper raised of 
essentially paying twice for the same capability. We have those 
uniformed maintainers. We have paid for them. We have trained 
them. We have developed them. We have bought their equipment, 
but, yet, we then pay again to provide a contract maintenance 
capability in theater.
    Mrs. Hartzler. We have tried to get the dollar numbers from 
the Department of Defense on how much it is costing to backfill 
with contractors in Afghanistan. We haven't gotten those yet. 
Mr. Russell, has the GAO done any study? Do you have an idea of 
how much money we are expending for contractors to maintain the 
aircraft in Afghanistan while we leave the maintainers at home 
here?
    Mr. Russell. No. At this point we haven't looked 
specifically at those costs. They may be difficult to get. I 
know, in general, trying to pull together contract costs can be 
a challenge within the Department, but we haven't looked at 
that specific number.
    Mrs. Hartzler. Okay. General Dubik.
    General Dubik. Madam Chairwoman, I made some calls to some 
friends of mine who were aviators, asked the same question, 
anticipated this. The report to me was about 400 to 500 
civilian contract maintenance personnel to work on a brigade's 
worth of aircraft at about $100 million a year. Now, I would 
certainly not take those numbers as gospel, because I think, as 
Mr. Russell pointed out, you really need to bear down on them. 
But it is a good ballpark figure. And this is for a capability 
that already exists in the force. So, in addition to paying the 
cost of a soldier to maintain, you are paying the additional 
cost as General Ham suggested, of sending some of those 
soldiers to other places so there is temporary duty costs. You 
are paying the cost of an additional deployment which is, in 
fact, what it is on temporary duty, and then the cost of the 
maintenance. So this is a complex and very costly approach to 
conducting what could be a military task, should be.
    Mrs. Hartzler. Absolutely. We are paying multiple ways 
through this scenario, and it is very, very concerning.
    Mr. Cooper.
    Mr. Cooper. Thank you, Madam Chair. It is relatively easy 
to beat up on troop caps, or FMLs, as a flawed device. And 
since I suggested in my opening statement, we need to be more 
forward-looking anyway, why don't we try to use this panel to 
focus on what might work in Iraq or Afghanistan, because I 
think most people would agree a light footprint is better than 
a heavy footprint, but that is if a light footprint works. And 
no one really has talked so far about the way special forces 
are treated, you know, sometimes unacknowledged, sometimes not 
counted, sometimes counted. So rather than focus on the flaws 
of a particular tool, why don't we try to choose what tool 
might work? And I know that requires vast knowledge of what is 
actually going on in country. But can you gentlemen, with your 
military expertise, and I am particularly proud of General Ham, 
because it is remarkable to ascend from private to full 
general. That is a rare accomplishment.
    What might work, because the public back home really 
doesn't care about these places. They really do care about our 
troops. They want what is effective, but also what is 
affordable. You know, there are foreign powers sometimes 
involved in these regions. Our NATO allies are varying, 
trustworthiness. You know, this is a very complex problem to 
figure out and it is easy to criticize. It is hard to perform. 
So what would be a better policy?
    General Ham. Well, Mr. Cooper, I will take a first attempt 
at that. First, I note for the record that I didn't go from 
private to four-star general in one step. There were a few 
years intervening there. But so it took a bit of a while, but 
thank you for that acknowledgment.
    In my experience as a theater commander, as a service 
component commander, as a director for operations on the Joint 
Staff, I think there is a role for force management levels. It 
is in the--in principle, I think force management levels serve 
a useful purpose in terms of conveying to military commanders 
and to military planners, the intent of proper civilian 
authority, the Commander in Chief, the Secretary of Defense, 
making sure that the level of commitment of the United States 
Armed Forces are consistent with the intent of the civilian 
authorities. So I think there is a utility in force management 
levels. I think it is in the application where we have 
difficulty sometimes. It is, as the gentlewoman commented, if 
you start the planning process with a force management level, I 
believe that leads you to a flawed planning process, and will 
preclude military planners from offering civilian authorities 
the full range of capabilities and options that they ought 
consider.
    So I would, my preference would be to see force management 
levels applied after a full consideration of a wide variety of 
options and when the appropriate civilian authority, Secretary 
of Defense, Commander in Chief, makes a decision. This is what 
we want to try to achieve. This is the level of effort that I 
think is about right. That, to me, is the time where force 
management levels ought be applied.
    And I would just finally note, Mr. Cooper, that I think you 
are right. Again, in application, what troops count, what 
don't, which don't. I don't believe it was the--it is the 
intent of force management levels to simply substitute 
uniformed U.S. military personnel for contractors, or for 
temporary duty personnel and the like. So getting to the 
intent, I think, is the right start and the appropriate 
application of force management levels at the appropriate time 
in the planning process which, to me, is more toward the end of 
the planning process rather than at the beginning.
    General Dubik. I can only echo that, Mr. Cooper. When the 
force management level decision is the product, or the result 
of an extensive and thorough dialogue between the civil and 
military authorities, and that dialogue informs the final 
decision authority, whether Secretary of Defense, or the 
President, of the range of option and risks, that is the time 
then to start talking about force management levels.
    If that process is aborted, or an arbitrary force 
management level is set in lieu of having that kind of 
discussion, then the result is generally a level of force that 
is unlikely to succeed; just won't fail. And that is not a good 
position to be in.
    Mr. Russell. Thank you, and I will add on to that, too. I 
totally agree with what the gentleman to my left said about the 
planning part of it. It is really important, you know, in terms 
of identifying what your risks are given the risk management 
level and knowing that and sometimes, I think as we have heard 
anecdotally anyway, that if you provide a number early on, 
sometimes it almost serves as an appetite suppressant to folks 
that would submit requirements, and it may suppress the 
requirements coming in, so you may not have a full range of 
unconstrained requirements coming in to look at. So I think 
that part of risk assessment is right.
    Also, Mr. Cooper, what you pointed out, I think is an 
important point as well, and is what the other gentleman said, 
was, you know, as you look forward, I mean, troop caps and 
force management levels have been around a long time. I think 
you have got to look at them as a way of life. It is likely 
they could continue in the future. So I think it is important 
that DOD look at ways to manage its forces in theater given 
those troop caps. What can be learned? And I think an important 
aspect of looking at these current operations where the troop 
caps are fairly low and limited, is how do you manage a force 
to do that? And in this case, in Iraq, for example, working 
more by, with, and through the Iraqis. How is that working?
    In some cases, you know, there is advantages because you do 
free up ground forces outside of the theater to do other things 
and maintain and develop readiness. You might have readiness 
enhancements with the partner forces that you are doing. But in 
the same sense, if you shift that burden over to other support 
functions such as air, special forces, that has other effects 
too. And I think it is up to DOD to kind of look at that whole 
mix and say what is the optimal way to operate given a force 
structure? And I think right now, we are really at an optimal 
point in time, given the operations in Iraq and Syria, and 
particularly in Iraq, taking stock at lessons learned and 
saying how are we doing? What have we learned? What has worked 
well, what hasn't? And DOD could maybe develop that into a 
model for how they might be able to apply forces going forward 
in future deployments should that be a continuation in the 
future.
    Mr. Cooper. Not to put too fine a point on it, but lest we 
be more critical than we are forward-focused, I would challenge 
the members of this subcommittee, if they don't like the 
current FML levels, and as Mr. Russell suggests, it is likely 
that FML approaches will be around for a long, long time. Then 
what is your favorite number? If you don't like 10,000 or 
5,000, pick one, and then justify it, because it is too easy 
for us to say, oh, you know, whatever the Pentagon does is 
wrong. What is our approach? Because I think there is an 
ambivalence in the American public that is very hard to 
reconcile right now, and we feel that acutely in our districts, 
because we want to win. But how do you win? And what does it 
take to win? And that is where the gap is.
    So if anyone has any specific suggestions, any particular 
numbers, because that is what policy boils down to. If you are 
not for this, what are you for? You can't just be against 
something.
    Mrs. Hartzler. Very good. Mr. Conaway.
    Mr. Conaway. Well, in following up on Mr. Cooper's comment, 
though, we are not in a position to know all of the answers as 
to what those levels ought to be without the full range of 
planning that needs to go on. So if force management levels or 
troop levels are the Holy Grail, not only during the planning 
phase but in the execution phase, what you see is workarounds. 
The DOD is really good at working around whatever it is.
    Now, they might not have been able to plan it properly on 
the front end because somebody put an arbitrary number out 
there, uninformed, like we would be doing, like you just 
suggested, and then clings to that number against everything 
else, as if that is the measure of what we need to be doing. It 
is just the number of people we have got in the fight.
    I would rather DOD have the flexibility of putting the 
range of what the fight needs to look like from the civilian 
folks, what do you want to accomplish, here is how you do it, 
and then a policymaker has a better idea of what goes on and 
how to get it done. Then, as the fight changes, which every 
fight does, then clinging to a number seems to me to be the 
wrong mechanic. It ought to be clinging to getting the job 
done. So what you are seeing is TDY [temporary duty] and 
contractors and everything else. I mean, the Department of 
Defense figures it out some way to get around whatever it is we 
have done.
    So I think the idea that policymakers cling to a number on 
the front end, uninformed, quite frankly, and you have seen 
that number change and move around. My question would be, TDY 
folks, do we have any sense, Mr. Russell, how many of those are 
involved? What the rotation cycles are? And what and where they 
are being pulled from and the impact it has, as well as the 
number has changed, particularly in Afghanistan. As the 
President got new information, did the mechanics for that 
process work efficiently enough, and nimble enough, to make 
sure that the folks in the fight aren't trapped at a number 
that the workaround can't get to and the mission is hurting as 
a result of lack of nimbleness in adjusting that number?
    Mr. Russell. Yeah, thank you for that question. With 
regards to the number of TDY, we actually have some numbers 
but, unfortunately, they are in a classified report. So I don't 
have it unclassified. But we had delivered a copy to the 
committee and there is some information in there on troop 
levels, contractors, and TDY folks.
    But with regard to rotations, they are typically 90- to 
120-day rotations, which creates some complications. Because 
one of the things is, you lose that continuity as people come 
in and come out. You sort of lose that learning curve and that 
continuity of folks that are working that problem in and out. 
Right.
    Mr. Conaway. In terms of General Ham and General Dubik, the 
process of changing, adjusting, has the Department of Defense 
been able to get to the White House to get the number changed? 
Is that nimble enough?
    General Ham. Well, Mr. Conaway, I suspect military 
commanders would always ask for greater flexibility, as you 
raised. But I think the point is that as conditions change, 
then there ought be a mechanism by which force management 
levels can be reassessed and adjusted. For me, I think this is 
an appropriate role for the Joint Chiefs of Staff, the most 
senior body of military advisers who have a global approach. As 
a former theater commander, you know, I kind of had my blinders 
on and my head down and I was mostly concerned, almost 
exclusively concerned about what was going on in my particular 
area of responsibility. And so I would place operational 
demands, requirements for forces based on that.
    It is the Joint Staff who, advising the Joint Chiefs of 
Staff, that has this global view of things, and this is another 
role I think where force management levels can play an 
appropriate role in balancing and prioritizing the global 
effort of the U.S. Armed Forces. So I think a mechanism that 
allows the Joint Chiefs to consider various force management 
levels and then render their statutory best military advice to 
the Secretary and Commander in Chief, I think that process is a 
pretty good one. And I think that collective body of the most 
senior military advisers is in the best position to give best 
advice to the senior civilian authorities.
    General Dubik. So, Mr. Conaway, I agree with General Ham's 
description of the process. My experience, at least in Iraq in 
2007-2008, was that the process is very slow. And that the pace 
of what happens in theater is much quicker than the pace of 
decisionmaking back here. And the result is often either having 
people with the wrong skill set, or having insufficient numbers 
of people.
    Now, that could well have been fixed. It has been 7 years. 
And the numbers are a lot smaller, so they are easier to 
manage. But I have to report that my experience is that there 
is a disconnect in the speed of what happens in theater and the 
speed of decisionmaking in adjustment here.
    Mr. Conaway. Thank you, General, I appreciate it. I yield 
back.
    Mrs. Hartzler. Representative Graham.
    Ms. Graham. Thank you, Madam Chairwoman. I have a lot of 
questions. Historically, you mention, I believe, Mr. Russell, 
that troop caps have been in place since the Vietnam War. Is 
that accurate?
    Mr. Russell. Yes, ma'am.
    Ms. Graham. What have we learned over time of the impact 
that troop caps have on our ability to fight the fight? And I 
was recently on a CODEL [congressional delegation] with 
Chairman Conaway. Good to see you, Mike. And we were in Kuwait 
at the beginning of the Mosul, liberation Mosul. And so that 
greatly affected me. And in terms of my question of do troop 
caps--are they having, over time, historically, what have we 
learned as to the effect or challenges that troop caps place on 
our ability to be successful in operations like Mosul? Thank 
you.
    Mr. Russell. Oh, yes, thanks for your question on that. 
Yeah, I think that is a good question. I am not sure that 
anybody has captured lessons learned to that extent. I can tell 
you, though, now, where the environment in my experience is 
quite different, the troop caps in Vietnam were troop ceilings 
at a very high level. You can also look at where we were in 
terms of Afghanistan, with 100,000 soldiers on the ground at 
one point; 170,000 in Iraq at one point. These are much larger.
    I think the real question now, as we look at an environment 
where it is much, much smaller, and I think that is where, as 
you get smaller now, the tradeoffs become much, much greater. 
So I think you are seeing more of an impact and more of a 
challenge when you get down to that number. And I am not sure 
yet--that is why I mentioned earlier, I think that the lessons 
learned now are really critical because it is in terms of what 
have we been able to accomplish at what cost and what risk in 
terms of getting the mission done, both in Iraq and now in 
Afghanistan as the numbers come down even lower. But I think we 
are kind of in a new area in terms of just the sheer number of 
constraint with regard to the levels where we are at now. It is 
kind of difficult to compare it back to those larger 
operations.
    Ms. Graham. Do you--and this is, sorry, Madam Chairwoman, I 
am going a little off topic--but I have not seen recently how 
we are doing in Mosul. If anyone can give me a brief update? 
Anyone know?
    Mr. Russell. At this point I don't have the update and of 
course, you have to be careful because a lot of the information 
is classified where it is going.
    Ms. Graham. Right.
    Mr. Russell. I think, you know, we are looking now in terms 
of our current work and enablers and how we are supporting 
them. And I think we will have some work coming down the road. 
It will probably be classified, but we will be looking into how 
enabling support is working to help the Iraqis. I think the 
important thing to know about Mosul is, it is really an Iraqi-
led operation. We are really working by, with, and through the 
Iraqis, probably more so than ever before. And so as we look to 
push through Mosul, I think it will be a real telling sign in 
terms of how well and how successful we are. I mean, we say the 
proof is in the pudding, I think the pudding is Mosul and we 
have to see how it goes.
    Ms. Graham. I agree. We don't want to continue to be in 
this circle in Iraq at some point. We have to figure out how to 
be successful and get out.
    What is the role of, as we replace--based on troop caps, 
replace with contractors, if we can just talk about Mosul, if 
you have enough information about that, what is the role in the 
offensive that contractors will be playing as opposed to troops 
as we are under a limitation on the troops that we can bring 
into the offensive?
    Mr. Russell. Yeah, I mean, it is kind of difficult to 
answer, particularly at the classification level, and I don't 
have the on-the-ground knowledge of how Mosul is being 
conducted with regards to that. I can step back and say more 
generally, contractors play a wide role in a military 
operation. Not just in specific military functions with regards 
to maintenance as folks have talked about, but they do base 
security, they do construction, they do dining services, and so 
there is a great wealth of, I guess, things that happen that 
contractors are responsible for.
    Sometimes it can be difficult to really isolate how much of 
that is because of a troop cap versus how much of that is just 
because overall, the force doesn't provide those kinds of 
services. So it is kind of a challenging answer to really gauge 
how much contractors are supporting it, but I would just step 
back and say in any operation, particularly in the last several 
years, contractors have been an integral part of the fighting 
force, a lot of perspective.
    Ms. Graham. Yes, General.
    General Dubik. Yes, ma'am. With respect to Mosul, there is 
a lot of open-source information on Mosul and I would commend 
you and your staff to read the updates from the Institute for 
the Study of War. They are sometimes daily and at least weekly. 
And the last update that I had read from those sources, again, 
all open source, nonclassified, is that the pace of the 
operations in Mosul had slowed; that as the forces have--Iraqi 
forces moved into the city from the outskirts and the small 
villages, that the pace of operations is much slower, both on 
the east and in the south.
    Further, that there is some concern about Iranian-sponsored 
militias operating west of Mosul and into Tal Afar. So the 
fight has gone, I think, at least from my experience, about how 
I expected and I think we will have many more months of 
fighting there.
    With respect to the train and advise mission, and your 
questions there, my opinion is to ask first, what is the 
objective? Is the objective merely to raise the tactical 
proficiency of the Iraqi Security Forces to a level to defeat 
ISIS in Mosul, and then pat ourselves on the back and say we 
kicked them out of Ramadi, we kicked them out of Fallujah, we 
kicked them out of Mosul now let's go home?
    Ms. Graham. Yeah.
    General Dubik. If that is the mission, we are about well-
resourced. But under those conditions, we may be doing the 
Battle of Fallujah Five. So I think the troop cap is the 
easiest thing to talk about. But what the strategic aim is 
really the key question. Because if the troop cap is not based 
on the strategic mission that the country can buy into, it is 
going to be wrong, regardless of whether it is high or low.
    Ms. Graham. I couldn't agree with you more, and I 
appreciate your comments and I yield back because I am out of 
time. Thank you very much, gentlemen.
    Mrs. Hartzler. Thank you, lady. Mr. Scott.
    Mr. Scott. Thank you, Madam Chair. General Dubik, your 
comment large enough not to fail, not large enough to succeed. 
I didn't get it exactly right. What--do you remember what you 
said? I thought that was pretty----
    General Dubik. That was pretty much it.
    Mr. Scott. That is pretty much the way we are fighting our 
war in a politically correct manner, isn't it? I mean, it is 
a----
    General Dubik. I wouldn't characterize it as politically 
correct, but I would characterize it as prolonging an already 
long war unnecessarily.
    Mr. Scott. I never served, certainly appreciate those who 
do, but my granddad was one of those World War II guys, and I 
can just imagine what he would be saying right now. I know he 
would ask me before we went into anything, have you made a 
decision to win it, because if you haven't, then don't waste 
the lives that it is going to cost if you are not willing to do 
what it takes to win.
    And I want to get to the cost of this, if I can. And just, 
we know it cost us more than it cost to deploy our men and 
women that are in the military, to fill most of those gaps with 
contractors. But if the DOD or the Secretary of State, if they 
can't tell us how much it is currently costing, then to me, it 
seems that there is an extreme gap in oversight with regard to 
this. I mean, if they can't tell you, they can't tell us, they 
can't tell the Government Accountability Office, who knows what 
it is costing us?
    General Dubik. I can only defer to Mr. Russell on the cost 
issue, because I have been out of the business now for detailed 
knowledge. But the cost, the fiscal cost of the war is an 
important element of waging this war. And, again, the issue for 
me is the strategic gain. What are we trying to do? And is the 
cost, in terms of dollars and lives, worth that strategic gain? 
That is the key discussion. All money is wasted if we either 
have no strategic gain, or have one that can't be attained or 
have the wrong one.
    Mr. Scott. Mr. Russell, who has the information?
    Mr. Russell. Various places in DOD, they certainly can 
track, I think, contract costs. And I agree. I think when you 
get to your question, it becomes much more difficult and that 
is, we are trying to understand the incremental cost of what 
exact contractors are doing that might be related to working 
under an FML, for example. It just becomes very difficult 
because then you have to be able to parse out which tasks and 
which contracts support them, and that is where you start 
losing that granularity. Just from a perspective in terms of 
contractors, right, there is a lot of money in contractors. 
Now, the information I have is somewhat dated, but going back 
to Afghanistan in fiscal year 2011, when we had the height of 
operations, we were spending $16 billion on contracts. I mean, 
if you look back at the contracting commission for wartime 
contracting between 2002 and 2011, we were spending about $166 
billion in Iraq and Afghanistan on contracting.
    So you are absolutely right. It is a very large dollar that 
is being spent and I think where you start to lose that 
granularity is when you start going down to exactly what are 
they doing, what are they working on, and which missions are 
they supporting, it becomes a lot more difficult.
    Mr. Scott. General Ham, you served at probably more levels 
than anybody else in the military. Thank you for your service.
    What impact does it have on the readiness of our units when 
you deploy part of a unit and not the rest of the unit? 
Aviation brigades is something that I am thinking of and what 
do you think the impact on morale is?
    General Ham. Mr. Scott, I think that is a great question. 
There are, I think, some identifiable readiness impacts in 
terms of when you split a unit that is not intended, not 
designed to be severable, when you split it apart, whether it 
is an aviation unit as we have discussed, separating 
maintenance from the flying crews, whether it is, as the 
chairwoman identified, whether it is an advise and assist 
brigade that most of the young soldiers stay at home and most 
of the noncommissioned officers and officers deploy.
    So you have time and expense to re-form that unit upon 
redeployment, because they are no longer a cohesive unit. It 
will take additional money, additional ammunition, additional 
time to rebuild readiness. But I think the point that you hit 
upon in terms of morale, esprit, I think that those are 
somewhat intangibles, but have a very real effect on readiness. 
If in the same unit you have soldiers who are deployed and 
those who aren't, you have a little bit of haves and have-nots.
    There are, obviously, as the Congress has approved, there 
are financial advantages to service members who are deployed, 
that those who aren't deployed don't enjoy. There are different 
family hardships. Those who are deployed, those who are not 
deployed. I think those have a yet-to-be-determined effect on 
unit morale and long-term what the effects may be on retention 
of some very highly qualified individuals in our service. So I 
think it is a great question. I don't know that those answers 
are readily available.
    Mr. Scott. Thank you.
    Mrs. Hartzler. Thank you. Representative McSally.
    Ms. McSally. Thank you, Madam Chair, and thank you 
gentlemen for your testimony. And Mr. Cooper, I do want to 
follow up. When you said provide an alternative, an alternative 
to just random numbers, it would be to set strategic objectives 
in these theaters, identify what we are trying to do, and then 
figure out what we need to do to get the mission done, and then 
that ends up being the number. I mean, this is, you know, to 
have a number be the driver for causing all of the things that 
are in the discussion in the testimony today--I led a CODEL 
back to Afghanistan, been there myself in uniform, of course, 
but last--in May, and deep concerns seeing what we are talking 
about here firsthand with also commanders and others spending a 
tremendous amount of time to find workarounds and measure the 
jerry-rigging in order to comply.
    So these real concerns are there, and they are taking the 
time of the commanders to not do the mission, but to actually 
comply with these random numbers.
    I think the first question I would have is, what is the 
purpose of the caps? What is the purpose of the numbers, the 
limits on boots on the ground? Is it cost? Is it risk to 
Americans? Because in these cases, the cost we are seeing is 
probably higher. As discussed already today, a risk to an 
American contractor is similar to a risk to an American troop. 
So it is not even clear what is the objective of these 
particular force management limits right now in Afghanistan and 
Iraq? Because it seems like we are not achieving either of 
them, if it is risk or if it is cost.
    And I think about--you know, I remember back when I was at 
Bagram with my A-10 squadron on Christmas Eve, out on the 
flight line with my maintenance troops trying to get an engine 
fixed that had been problematic and had an emergency on 
Christmas night in the middle of the cold and the snow trying 
to get this done, and everybody doing everything they can to 
keep the mission going around the clock; those were my 
maintenance guys that reported to me.
    The one thing with contractors is, they don't report to the 
commander, they report to some program manager, and if you want 
to have to get them to do something differently, you can't 
direct them to do that.
    So it hasn't, first of all, the question is about what do 
you think the purpose is of the caps, because I think we are 
not achieving any of the purposes, potentially, and then 
secondly, what is the impact on unity of command, chain of 
command, because if you have got contractors out there, it is 
just a different relationship than if they are your unit. 
General Ham first.
    General Ham. I will take, again, a first attempt at that, 
if I may. I think there are valid purposes for force management 
levels. I think it does ensure that the application of U.S. 
Armed Forces is consistent with the policy decisions that are 
made by the Commander in Chief, by the Secretary of Defense, 
and within the resource constraints that have been approved by 
the Congress. So I think there are appropriate--there is an 
appropriate role for force management levels. From a purely 
military standpoint, I think it is one way to manage the global 
force and the requirements that the Department of Defense needs 
to meet around the globe.
    It does have a tendency, it does constrain unanticipated 
growth, so-called mission creep, from occurring without 
appropriate approval and authority. So I think there is a 
proper role for that. But I think you are exactly right, ma'am, 
to say when the--when activities are driven by a number, rather 
than by the mission----
    Ms. McSally. Right.
    General Ham [continuing]. Then I think we have got things 
out of whack and out of priority. So, again, back to my earlier 
statement, I think it is--when is the force management level 
decided upon and the planning and decisionmaking process, and 
what is the appropriate mechanism for revisiting that as 
conditions change?
    Ms. McSally. Right. And then comments on the chain of 
command, or General Dubik, do you want to----
    General Dubik. I will first reiterate that I have been 
under force management levels three times, first in Haiti, 
second in Bosnia, third in Iraq. And at each of those times, in 
my opinion, the force management levels were set correctly by 
the strategic objective; not as high as the military commanders 
wanted; not as low as they are now. So there is a role for 
these things.
    In terms of contractors, I have to report that I have only 
had good experiences with those contractors that had worked for 
me.
    Ms. McSally. Oh, they are great people. Don't get me wrong. 
I mean, I worked along tremendous contractors as well.
    General Dubik. And in terms of responsiveness, I have had 
bad experiences, though, with respect to flexibility. Because 
when you change the task, you have to change the contract. And 
that is a very timely affair.
    For example, we had to change the contract for police 
development in Iraq in 2008. It took 8 months. I initiated, I 
left, my successor inherited it. And in that intervening 8 
months, we had the mismatch of skill sets and personnel to do 
the job that was required.
    Ms. McSally. Got it. Just a final comment on the TDY 
element when I was there in the spring. We had entire units 
TDYed to Helmand Province to help stop the bleeding there. You 
don't go TDY to Helmand Province. You go TDY to Nellis Air 
Force Base. To be calling TDY to a combat zone to be out there 
addressing the combat situation is ridiculous and that is what 
these random force management levels have, you know, have 
created. I mean, that is just insane. And I would just say--I 
know I am out of my time--Mr. Russell, if there is any study of 
the exact costs, I would ask that it would consider also the 
cost of stationing air assets outside Iraq and Afghanistan, 
like combat search and rescue [CSAR], ISR, tactical airlift 
that are now in the theater, but further away. Both the 
financial costs with fuel and the other assets, and then the 
risks. If you don't have CSAR right there, you are talking 
about risk to lives because you are not as responsive. And 
these things need to be included in any discussion as well.
    Thank you, Madam Chair, I appreciate it.
    Mrs. Hartzler. You bet. Mr. Russell, will there be a study 
on that?
    Mr. Russell. At this point, we are not looking at it. We 
can look into it. We do have a study going on where we are 
looking at enabling support that is being provided. So 
potentially, as we look at that, we could get into some those 
issues as well in terms of what enabling support is being 
provided. But we will have to look at that and see.
    Mrs. Hartzler. Yeah. I would encourage you to do that and 
get back with us on that because I think that Representative 
McSally brings up a really good point. It would be great to 
have you look into that.
    Mr. Russell. Yes, ma'am.
    Mrs. Hartzler. Representative Walorski.
    Mrs. Walorski. Thanks, Madam Chair. Thank you, gentlemen, 
for your service to our country. I very much appreciate it. 
Just as a follow-up, I mean, there has been a lot of the same 
kind of questions going down the same trails here, but are 
there areas now that are critical to the ANSF's [Afghan 
National Security Forces] future viability and success that we 
can't effectively impact due to the low troop cap? I wanted to 
just do a follow-up on that really quickly.
    For example, are soldiers unable to advise certain units 
who may need it simply because we don't have the boots on the 
ground necessary to adequately secure the training area? And I 
want to wrap this third question into this, to follow up on 
that in a more quantity versus quality question, if General 
Nicholson were to see progress in one area like basic 
soldiering, but not in another like vehicle maintenance, or 
command and control, does he have the flexibility to alter the 
composition of the troops on the ground, or is that the kind of 
flexibility, General Ham, that you were speaking of that there 
just needs to be more flexibility?
    General Ham. Ma'am, I am sorry. I am not sufficiently 
current with the answer to your questions about the ANSF. I 
think they are absolutely valid questions, to be sure.
    Mrs. Walorski. Sure.
    General Ham. On the last point, my sense is that the 
theater commander has the ability to determine the requirements 
within the troop cap. I mean, he can request certain 
capabilities so if he needs more maintenance and less infantry, 
I think he has the ability to make--there is a process through 
which he makes those changes in the requirements so long as 
they stay within the force management level. I think it is much 
more difficult for him to make a recommendation--the processes 
we have discussed--to exceed, to change the force management 
levels is a much more cumbersome, much more time-consuming 
process.
    Mrs. Walorski. General Dubik.
    General Dubik. Yes, ma'am. With respect to the ANSF, my 
guess is that the allocation of forces there is insufficient. 
And I base that on a general knowledge of the task. This is 
what I had done in Iraq, and I have been to Afghanistan about 
four times looking at the ANSF and overall mission. When you 
are trying to build a self-sufficient Army, there are four 
pieces of that Army that you have to look at. The first is, I 
will say, the tip of the spear. That is the tactical 
proficiency.
    The second is a layers or echelons of command that support 
the tip of the spear.
    The third part is the senior military commands that 
generate the resources, people, things, and money to flow down 
through the chain of command.
    And the last is the ministry of defense, which of course, 
has the mission to acquire people, acquire things, determine 
the size of the force, make policy decisions.
    All four of those are necessary for a self-sufficient Army. 
And my belief is that the current numbers are insufficient to 
adequately address all four pieces simultaneously. So what 
General Nicholson has to do is a matter of priorities where he 
wants to shift closer to the tip, closer to the, you know, and 
that is part of his job.
    Mrs. Walorski. I appreciate it. Thank you, Madam Chair. I 
yield back.
    Mrs. Hartzler. Thank you. Mr. Russell.
    Mr. Russell of Oklahoma. Thank you, Madam Chairman, and 
thank you for calling this panel here today. I had the honor to 
serve with General Ham on several assignments and his 
thumbprint is pretty deep in my life with his influence. And 
General Dubik's reputation is second to none, also. Thank you 
for being here. I think, Mr. Cooper, you ask an important 
question that we rarely ask, and it has been articulated here 
by several of us. What will work?
    And I want to echo, establish the purpose of what it is 
that we want to do and then the tasks that would accomplish 
that purpose and then put troops to the task. It really is that 
simple. Military leaders do that all the time. And, yet, 
ofttimes what happens is that after those requests are made, we 
have to have the political will as politicians--as much as I 
hate that word being a warrior most of my life--we have to have 
the political will to back up the recommendations. And at that 
point, support it rather than equivocate and we need to avoid 
accusations when we force them into a cap area that wasn't 
adequate to accomplish the task by saying, well, it is mission 
creep. And you keep coming back and asking for more. It 
probably wasn't adequate to begin with.
    Civilian authority often fails to recognize that the most 
humane thing you can do in battle is to end the carnage and 
suffering as quickly as possible. That is rarely achieved with 
halfhearted or restrained commitment. I guess my question, 
General Ham, sir, to you, would be, would you say that military 
capacity that is translated to contractors increases efficiency 
and saves money? Or reduces it and causes more money to correct 
lack of continuity and cohesion on both ends of active 
operations and redeployment?
    General Ham. Well, thanks, sir, and it is great to see you 
again. And I guess I would make the argument that your imprint 
is perhaps deeper on me than mine on yours. But thanks for that 
and thanks for continuing to serve.
    I think this--the issue of contractors is one that deserves 
lots of study. Mr. Russell and others have looked at this, and 
I think appropriately so. There is, in my view, an absolutely 
appropriate role for contractors in combat theaters. There are 
a number of functions that they can perform, often at less cost 
than uniformed personnel, but not all tasks.
    I think where we, in my view, where we get it wrong is 
when--whether because of force management levels or other 
factors, we seek contractors to perform inherently military 
tasks. If the military doesn't, if we don't have sufficient 
capacity, if that capability is applied somewhere else in the 
world and it certainly isn't--and just isn't available, then to 
me it makes sense, perhaps, to turn to a contracting option.
    But in the example that we have cited a number of times 
this morning for aviation maintenance as one example, aviation 
units, as you know very well, are built with organic 
maintenance capability. To not employ that, but employ 
contractors in lieu of that uniform capability seems to be not 
only fiscally a bad choice, but operationally a bad choice as 
well. But I certainly would not, you know, discount the 
important role that contractors perform in a wide variety of 
functions.
    Mr. Russell of Oklahoma. And I appreciate the distinction 
of contractors having a role on tasks that are not inherently 
military. I would totally agree with that. I think where we 
have made errors, since the peace dividend days where we have 
reduced everything and put so much shift to contractors is that 
we have forced them into a lot of military roles, complicating 
things, such as civilians on the battlefield, the laws of land 
warfare and many other aspects that we fail to recognize.
    General Dubik, I guess in a follow-on on this, sir, would 
be if contractors cannot support certain combat operations due 
to the limitations of their contracts, and I know you faced 
this in some unique environments from disaster support, to 
failed government, to also combat operations, what impacts does 
contractors' lack or limitation in those roles have on the 
ability to swiftly accomplish the tasks as a commander?
    General Dubik. Well, thank you, sir. I actually have just a 
slightly different perspective and that is that contractors can 
perform the tasks that they are contracted to do actually 
pretty well. But there is zero flexibility for the commander 
beyond that.
    Mr. Russell of Oklahoma. Right.
    General Dubik. With a soldier who is a cook, or a mechanic, 
or a clerk, and you need additional force protection people, 
there they are. You need additional convoy security people, 
there they are. So a soldier deployed is much more flexible 
than a contractor deployed.
    Mr. Russell of Oklahoma. He is probably cheaper, I am 
guessing?
    General Dubik. I would say at least as expensive, if not 
way cheaper.
    Mr. Russell of Oklahoma. Thank you, sir. And thank you, 
Madam Chairman, for allowing me to join today.
    Mrs. Hartzler. Great questions. I have a few more questions 
I would like to ask and welcome the ranking member here. And I 
know she has some questions so we will turn to her in just a 
minute.
    But I wanted to go back to the maintainers issue and how 
they are splitting those out of the units. Is there any 
rational reason where you would split those in developing the 
number, the troop levels? Do you think that was considered?
    General Ham. Madam Chairwoman, I think it goes back to the 
point that General Dubik has raised. It starts with what is the 
purpose that you want to achieve? And if in the analysis of 
that purpose, and in an articulation of a mission, if you come 
to the conclusion that the right application of force is 
perhaps not all of a unit so, would take an aviation brigade, 
maybe you don't need the entirety of the aviation brigade that 
you would only deploy part of it, then I think there would be 
some rationale for deploying part of the unit, leaving part at 
home.
    But to me, that would be, you would deploy airframes, 
aircrews, maintenance and ground support in proportion to the 
mission, and those that would stay at home station would also 
retain the capabilities of maintenance, ground support and the 
like. So again, these units that are not designed to be 
severable, you have to be very careful when we do, in fact, 
separate them, particularly if the purpose is to meet a number 
rather than to meet a mission.
    Mrs. Hartzler. So you would assume that the 8,448 number 
that they came up with has caused the maintainers to stay home. 
There is no rational reason for them, in their planning, to 
send an entire unit over there and leave their maintainers at 
home?
    General Ham. Madam Chairwoman, it is my understanding that 
in those cases where those decisions were made, they were made 
primarily as a consequence of the force management level.
    Mrs. Hartzler. Very good. Okay. Thank you.
    Mr. Russell, how are--how does the U.S. Government oversee 
contractors in the theater? So, say, the maintainers?
    Mr. Russell. Yeah, and I think that is a great point 
because for the last several years, we have looked at oversight 
issues and oversight challenges, and typically, when you are in 
theater, you have contractors offices' representatives that 
would be assigned, and typically, these are military personnel 
that get this as a secondary duty, and they would be 
responsible for making sure the contractor does what is 
supposed to be done under the contracts that they are required 
to do.
    They are basically the eyes and ears of the contracting 
officer. And even when we look at the heyday, when there were 
100,000 troops on the ground in Afghanistan, we found 
challenges where the contracting officer representatives had 
too many contracts, and they weren't able to get out and 
actually observe the performance of the contracts, leading to 
all sorts of undesirable effects, such as, in one case, a five-
compound building was built, for example, outside the wire of a 
base. The contracting officer just couldn't simply get out 
there and do the job they had to do.
    And so while adjustments have been made, and DOD has made 
some progress, it does raise big questions when you have a 
smaller troop ground, can you be able to absorb that oversight 
capacity in addition to all the other missions that you are 
trying to accomplish under the same cap.
    Mrs. Hartzler. Good point. I want to follow up on the TDY 
questions. Do TDY forces cost more than other deployed forces?
    Mr. Russell. I am not sure if I have any information to be 
able to answer that question. I think one of the--to get to the 
point, though, about TDY, one concern I would like to bring up 
is the fact that when you do the TDY, sometimes you lose 
visibility over the total force that is actually doing the 
mission.
    I think that is some of the risk that you face with the 
TDYs, are we capturing and tracking and matching that up to the 
folks that are on the ground to ensure that that is the real 
requirement and that is what it takes to get the job done.
    Mrs. Hartzler. So has the use of temporary personnel 
strained in any way medical or logistical support forces?
    Mr. Russell. I have not looked at that, so I wouldn't be in 
a position yet to be able to say that. So with the ongoing 
work, may get into it. Of course, that would be a classified 
level. We can talk about that in that kind of a venue.
    General Ham. If I may, Madam Chairwoman, I think, again, it 
goes back to purpose. If we are making a decision to send 
people into an operational theater in a temporary duty status 
as a means of circumventing the force management level, then I 
think that probably ought to be questioned. There are certainly 
legitimate purposes for people to go into an operational 
theater on temporary duty.
    For example, perhaps fielding a new piece of equipment 
might, you know, a short duration, specific purpose, temporary 
duty might be exactly the right status for those individuals, 
but if it is just intended to keep them below the force 
management level, that probably is circumventing the intent.
    Mrs. Hartzler. General Dubik.
    General Dubik. That is all I was going to say.
    Mrs. Hartzler. All right. Very good.
    Ranking Member Speier.
    Ms. Speier. Thank you, Madam Chair.
    And thank you for participating today. I apologize for not 
being here at the beginning, but we have organizational 
hearings going on and other committee hearings that I had to 
participate in, but I am here now, and I thank you.
    I would like to just clarify the term FML. It is my 
understanding that force management levels are not set in 
stone. This is a question for you, General Ham, and that the 
administration has been relatively flexible about this. What 
flexibilities for adjustments are there?
    General Ham. Well, ma'am, thanks. It is good to see you 
again. I think that once a force--once a force management level 
is decided upon by an appropriate civilian authority, there 
ought be sufficient flexibility to adjust that based on 
changing conditions on the ground, and I think, in my 
experience, that system is pretty cumbersome. And from a 
military standpoint, it has been more difficult, I think, to 
adjust the force management level, so that is where--that is 
why I think we have seen military commanders make some 
decisions to keep the troop level underneath the force 
management level, the use of contractors, some of the issues 
that Mr. Russell articulated in terms of----
    Ms. Speier. Okay.
    General Ham [continuing]. Special operations forces and the 
like.
    Ms. Speier. So what you are suggesting, then, is that the 
FML is too inflexible, and you don't have the opportunity to 
increase it by 3 percent, 2 percent, 10 percent.
    General Ham. As a former military commander, I would argue 
for greater flexibility and agility for the appropriate 
civilian authority to adjust force management levels, based on 
changed conditions and recommendations of the theater 
commander, and of the Joint Chiefs in their role as managing 
the global force.
    Ms. Speier. Which is a really important point, because in 
the end, it is a game that is being played, right, in terms of 
numbers? So if you have the FML and you can't exceed it, then 
you are going to hire more contractors to do what you need to 
do, sounds like. Is that right?
    General Ham. Well, I think, ma'am, we certainly have seen 
some--you know, some examples of that, and I believe--and I do 
believe that there is an appropriate role for force management 
levels, but I think we have seen in implementation what I think 
some----
    Ms. Speier. Adverse consequences?
    General Ham. Yeah, ways to get around it.
    Ms. Speier. To what extent is the FML determined in 
conjunction with another sovereign nation?
    General Ham. It is an important consideration. Certainly, 
you know, in most of the places where U.S. Armed Forces are 
deployed, there is a sovereign government, not always, but when 
there is a sovereign government, certainly that is a very, very 
important consideration. And I think it certainly has been the 
case, and I think that has been one of the reasons why--one of 
the determinants of what the force management level is.
    I think that is appropriate that the host nation would have 
some say in that, but it has also got to be a communication 
between the U.S. Government and that host nation government in 
terms of, you know, what is achievable at various levels of 
forces.
    Ms. Speier. Well, in the end, unless we do it in 
conjunction with the host country, we are in occupation mode, 
correct?
    General Ham. Yes. I think certainly, you know, we respect 
the sovereignty of these nations, and it is important to do 
this in conjunction with them.
    Ms. Speier. So my understanding is that Iraq has been 
fairly clear that they want us in advisory roles and at limited 
FML. Is that correct?
    General Ham. That is my understanding, yes, ma'am.
    Ms. Speier. All right. And in terms of the whole issue of 
readiness, and, you know, I think there probably is a 
difference of opinion on the committee in terms of how many 
more troops we want to have in engagement in Iraq and 
Afghanistan, and that is one question. But then the other 
question is really one about readiness and whether or not we 
want them there or ready to engage in other conflicts.
    So let me ask you this question, and you might have to take 
it down to make sure you get your answer right. I am going to 
ask all three of you this question. If you had a choice, if you 
could spend more money, would you, A, give it to our troops in 
terms of more time at home to rest, train, and recuperate 
between deployments; B, increase the number of troops we have 
in Afghanistan; C, increase the number of troops we have 
fighting ISIS in Iraq and Syria; or D, forward deploy to 
increase deterrents in Europe?
    So Mr. Russell, what would be your answer?
    Mr. Russell. Well, I wouldn't want to speak on behalf of 
the administration in terms of what the best course of action 
to be. I think you have to go back to look at what are the 
objectives and have we really defined what it is we are trying 
to accomplish. I think, as you mentioned, just as a precursor, 
when you look a FMLs, you do have advantages and disadvantages 
that go with it that have to be--the tradeoffs have to be 
compared. I mean, as you mentioned one of the things, to the 
extent that you have a smaller force cap, obviously, the more 
troops you are going to have available to do other things. And 
so I think having the objective and the force cap lined up 
right has to be looked at globally across the board.
    So I think those are some of the significant considerations 
that have to be made in order to make those choices.
    Ms. Speier. So you are not going to answer my question?
    Mr. Russell. It is a little difficult for me to pick one 
from where I sit.
    Ms. Speier. All right. General Ham, would you----
    General Ham. Yeah, I think I find myself probably in the 
same case as Mr. Russell in terms of not giving you a precise 
answer.
    Ms. Speier. You are a politician, you realize that.
    General Ham. But I--but this is--the question you raise, 
ma'am, is exactly the right question, because this is--there 
are finite resources, and so this is the balancing between 
operational requirements in theaters across the globe, 
balancing that with readiness for future contingencies, some of 
which are unforeseen, so we have to have some capability to 
meet that.
    Certainly, the preservation of the All-Volunteer Force, I 
think, is a very, very high priority, and that means you have 
got to have--afford a quality of life for people that they are 
not constantly deployed, so that is a balance.
    The one I would answer specifically, and I will fall back 
on my time on the National Commission on the Future of the 
Army, I do believe there is a requirement for an increase in 
forward deployed forces in Europe.
    Ms. Speier. So you would answer D?
    General Ham. I would answer D for an increase in forward 
deployed.
    Ms. Speier. I would concur. Thank you.
    General Dubik.
    General Dubik. Yes, ma'am. So I am looking at readiness in 
two senses: readiness for current operations and readiness for 
the unforeseen contingencies. With respect to the first, I 
would answer D also, but I would do so not in a rotation basis, 
but a PCS [permanent change of station] basis, because then you 
can accomplish both A and D at the same time.
    But the other part to the question, readiness for 
contingency operations, is one that is equally important. For 
example, right now we have five brigade combat teams doing 
train and assist kind of things. Well, that means you have five 
doing it, five preparing to do it, and five recovering. That is 
15 brigade combat teams allocated to that task, and as soon as 
they deploy with all of their leaders but not their soldiers, 
you have five brigades instantly unready for a contingency 
operations, and when they return, you have five brigades that 
are unready for 1 to 3 years--1 to 2 years in terms of 
preparation.
    So I would answer the second part for contingency 
operations, actually E, we have not allocated, I think, a 
sufficient number, the total end strength of the Armed Forces, 
to serve the global requirements of the United States. And part 
of the contractor issue, part of the force management issue is 
a mask to that requirement that is not being met, and we are 
taking significant risk being focusing on near-term readiness 
for current operations, which is absolutely required, but the 
risk is being unable to respond to a contingency operation.
    And as Secretary Gates has famously said, you know, we are 
always 100 percent wrong and 100 percent surprised, and we have 
placed the armed services in a very risky situation if anything 
happens other than current operations.
    General Ham. Ma'am, could I add one more?
    Ms. Speier. Of course.
    General Ham. So the other place, I think would be helpful 
would be increased flexibility, authority, and resourcing for 
the Reserve Components of the U.S. Armed Forces so that they 
can be more operationally employed. Certainly on a predictable 
basis and certainly not as frequently as the regular forces, 
but there is great capacity, great skill, great experience in 
the Reserve Components. We want to keep them ready as well.
    Ms. Speier. All right. Thank you all. I yield back.
    Mrs. Hartzler. Great questions. Well, I think we have had 
very good discussion today. It has been very helpful to look at 
where we are now, what are some of the issues that we are 
facing with the troop levels, caps that have been set into 
place, and as we look to move forward, you know, what needs to 
be done, and so I appreciate your expertise. Thank you for 
being here. Thank you for your continued service to our 
country, and this hearing stands adjourned.
    [Whereupon, at 11:12 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            December 1, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 1, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
                         [all]
</pre></body></html>
